CERTIFICATE OF SERVICE
I, Dan M. Peterson, hereby certify that pursuant to this Court's order dated
April 15, 2020, one paper copy of the Brief of Amici Curiae Law Enforcement
Groups and State and Local Firearms Rights Groups in the case of New York State
Rifl,e & Pistol Association, Inc., et al. v. Keith M. Corlett, et al., No. 20-843, was sent
by Federal Express overnight to the U.S. Supreme Court and, the parties having
consented to electronic service, the brief was sent by email to the parties listed
below, this 22nd day of January, 2021:
Paul D. Clement
Erin Murphy
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com
erin.murphy@kirkland.com
Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Anisha Dasgupta
Joseph M. Spadola
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov
anisha.dasgupta@ag.ny.gov
joseph.spadola@ag.ny.gov
Counsel for Respondents

Dan M. Peterson
Counsel of Record for Amici Curiae

